    COMMISSION RESPONSES TO
       INVESTOR INQUIRIES

                           EXECUTIVE SUMMARY
Our audit of Commission responses to investor inquiries found that the staff
responds to investor inquiries timely. We did not identify any instances of the Office
of Investor Education and Assistance (OIEA) providing investors with inaccurate
information.
We are making several recommendations to improve the inquiry response process
including: evaluating the effectiveness of the inquiry response process, improving
search results, increasing the use of technology, quality assurance reviews, and
separation of duties. During the audit, we also discussed other issues with senior
management.
Commission management generally concurred with our recommendations.



                          SCOPE AND OBJECTIVE
Our audit objective was to evaluate the effectiveness and efficiency of Commission
responses to investor inquiries. During the audit, we interviewed and surveyed
Commission staff, reviewed Commission web pages, conducted research on best
practices for responding to customer inquiries, and analyzed judgment samples of
investor inquiries received by OIEA and the related responses. We did not review
responses to investor inquiries received by the field offices.1 We also did not
evaluate responses to investor complaints.2
The audit was performed from April 2003 to September 2003 in accordance with
generally accepted government auditing standards.




1   We did not review responses from the field offices because OIEA receives the vast majority (approximately
    81%) of investor inquiries.
2   Our most recent audit on the Investor Education and Assistance Program (IEAP) primarily focused on the
    complaint process (Audit No. 288 issued in April 2000).
                                                                                                  Page       2




                                      BACKGROUND

General Information
The Investor Education and Assistance Program (IEAP) consists of 35 staff in OIEA
and 14 Investor Assistance Specialists in the field offices. The IEAP:
      •   Responds to investor inquiries,
      •   Assists investors with complaints, and
      •   Conducts investor educational activities.
Investors can obtain answers to their questions either by using the Commission’s
web site to locate information that the staff has posted3, or by asking questions to
the staff by telephone calls, letters, faxes, and e-mails.
In fiscal year 2003, according to the IEAP’s tracking system (Agency Correspondence
Tracking System ACTS+), the IEAP staff received approximately 47,500 investor
inquiries. OIEA received approximately 81% of these inquiries; the field offices
received the remainder. Agency wide, the inquiries were mainly received by
telephone calls (54%) and e-mail (42%).

Investors Researching Answers On-Line
In addition to numerous online publications, investor alerts, interactive tools, and
other materials in the “Investor Information” section of the Commission’s web site,
OIEA has posted and maintains two web pages specifically designed to help
investors find instant answers to securities-related questions by themselves. 4
Investors can access both of these web pages through the “Fast Answers” link on the
Commission’s home page and other links on various OIEA web pages. These two
pages can be described as follows:
      •   Key Topics:
                             This is an alphabetical listing of approximately 300
                             subjects. An example of this web page can found in Appendix
                             A. The web address for this web page is
                             http://www.sec.gov/answers.shtml; and

      •   Frequently Asked Questions (FAQ):
                       This is a database of approximately 1,200 frequently asked
                       questions and answers. Investors submit a question and
                       receive instant answers. If an investor cannot find an answer
                       or wishes to ask a follow-up question, he or she has the option
                       of submitting an e-mail to OIEA. An example of this web page
                       can be found in Appendix B. The web address for this web
                       page is http://sec.broaddaylight.com/sec/index.html.

3   In these situations, there is no staff involvement once the information is posted, except for periodic
    monitoring to ensure that the information is current.
4   In addition, the Commission’s Home page (www.sec.gov) provides a research capability, as discussed
    later in the report.


INVESTOR INQUIRIES (AUDIT 373)                                                          MA R C H 2 9 , 2 0 0 4
                                                                              Page      3




According to the Commission’s Office of Information Technology, in fiscal year 2003,
the Key Topics web page received 34,158 hits.
Because of security concerns, when investors use FAQ, they are actually on a
vendor’s web page and are using the vendor’s software. According to the vendor, the
FAQ web page received 698,297 hits and 124,164 unique visitors in fiscal year 2003.
During the audit, OIEA began to reorganize its web pages to make it easier for
investors to find information. For example, OIEA revised the “Online Publications”
page so that it not only gave investors an alphabetical listing of the Commission’s
investor publications, but also allowed investors to browse publications by subject
and to conduct a key word search solely within the “Investor Information” section of
the Commission’s website.

Staff Processing of Investor Inquiries

       Telephone Calls
Two telephone numbers are provided for investors to contact OIEA: (800) SEC-0330,
and (202) 942-7040. A telephone tree (e.g., press “3” for educational publications)
and an Automatic Call Distribution (ACD) System manage the incoming telephone
calls.
The 800 telephone number provides general information to the public. Upon
selecting the inquiry option, investors are transferred to the 942-7040 telephone
number, where they can speak with an Investor Assistance Specialist.
The field offices also have telephone numbers for investors. OIEA is considering
requesting a Commission-wide telephone system for inquiries.

       E-Mails
Investors submit e-mails to OIEA by writing directly to help@sec.gov or sending
their questions indirectly through the Fast Answers FAQ feature. On a daily
rotating basis, one of four staff attorneys answer the e-mails. E-mails are typically
answered the day that they are received. After responding, the attorneys forward a
copy of the inquiry and the response to their Branch Chief for review. Senior OIEA
management also periodically reviews selected inquiries and responses. Investors
also send e-mails to the field offices.

       Letters and Faxes
On a daily rotating basis, OIEA Branch Chiefs receive investor letters and faxes and
assign them to an Investor Assistance Specialist for a response. The Branch Chief
reviews the response before it is sent to the investor.
OIEA attempts to respond to letters and faxes received by the Chairman’s Office
(and subsequently forwarded to OIEA) within 5 days. The goal for other letters and
faxes is 30 days.




INVESTOR INQUIRIES (AUDIT 373)                                      MA R C H 2 9 , 2 0 0 4
                                                                               Page      4



The field offices also respond to investor letters and faxes and have set various time
goals for the response. The quality assurance review process varies by field office
(this issue is discussed later in this report).



                           AUDIT RESULTS
We found that the staff generally responds to investor inquiries timely. We did not
identify any instances of OIEA providing investors with inaccurate information.
We are making several recommendations to improve the inquiry response process
including: evaluating the effectiveness of the inquiry response process, improving
search results, increasing the use of technology, quality assurance reviews, and
separation of duties.


MEASURING THE EFFECTIVENESS OF THE INVESTOR
RESPONSE PROCESS
OIEA needs additional management information to evaluate the effectiveness of the
Fast Answers web pages. For instance, important measures of effectiveness that
OIEA cannot currently evaluate include:
   •   How often investors research Fast Answers and successfully obtain answers
       to their questions;
   •   How often investors submit a question to the staff because a Fast Answer
       response was not adequate or available; and
   •   How often investors submit a question to the staff even though a Fast
       Answer was available and adequate.
Because of technology and other issues, OIEA does not have information on the
number of investor questions submitted to FAQ. Instead, the vendor provides OIEA
with the number of answers provided. However, one question can generate up to 30
answers (some of these answers may not be applicable, as discussed later in our
report). During the audit, OIEA requested that its vendor provide additional data
concerning the raw number of questions that investors submit to FAQ and the
number of e-mails generated through FAQ.
Also, OIEA does not ask investors to rate their satisfaction with either the Fast
Answers web pages or responses provided by the staff. According to OIEA, the FAQ
web page previously allowed investors to submit comments. However, many
investors used this space to ask additional questions rather than provide feedback.
OIEA and the field office Investor Assistance Specialists stated that they sometimes
receive unsolicited feedback from investors. This feedback, while valuable, is not
systematic.




INVESTOR INQUIRIES (AUDIT 373)                                       MA R C H 2 9 , 2 0 0 4
                                                                              Page      5



       Recommendation A
       OIEA, in consultation with the field offices and the vendor, should develop
       methods to obtain additional management information on the effectiveness of
       the Fast Answers web pages, as well as overall investor satisfaction with the
       investor response process.
During the audit, OIEA began to implement this recommendation.


AUTOMATING SEARCH RESULTS

FAQ Web Page
We believe that the process for providing useful online information for investors
could be improved. We estimated that approximately 50% of the e-mails OIEA
receives come from investors who first visited the FAQ web page.
According to our research into online databases, the most effective “instant answers”
systems provide only responses that pertain to the inquiry. We found that the FAQ
system can often provide irrelevant responses to inquiries, depending on the
question asked and whether the search is limited to a specific category (e.g., About
the SEC, SEC Rules & Laws, Terms & Definitions).
We believe that the current FAQ categories and page layout might confuse some
investors. Further, the FAQ system does not allow smart searches (e.g., using
symbols “*” and words “and, or”) to improve the accuracy of searches. During the
audit, OIEA began working with the vendor to improve the layout of the FAQ page.

       Recommendation B
       OIEA, in consultation with the vendor and others (e.g., web page designers),
       should consider ways to improve the automated search capabilities, as
       discussed above.

Commission Home Page
Investors seeking information can also use the main search field on the
Commission’s home page to locate information. We found that the results provided
on the Commission’s home page were not user friendly. Depending on the topic
searched, hundreds of results were given. Moreover, the results were not
categorized (e.g., all search results involving litigation releases were not grouped
together).
During the audit, the Commission’s Web Committee implemented a more user-
friendly approach for using the main search field on the Home Page. Searches can
now be performed within certain categories (e.g., Corporation Finance). Thus, we
are not making a recommendation regarding this issue.




INVESTOR INQUIRIES (AUDIT 373)                                      MA R C H 2 9 , 2 0 0 4
                                                                                Page      6



ACTS+ CODING
ACTS+ is the database that the IEAP uses to record information about the investor
and the topic of the inquiry. Before the audit, IEAP staff had only a limited number
of inquiry codes from which to select, including a “general” code that the staff used
when a more specific code did not exist or the staff thought it most appropriate. As a
result, inquiry information could not be effectively used to identify:
   •   When new online information is needed because the staff is receiving
       questions about a topic for which there is no information available on the
       Fast Answers web pages. Currently, OIEA relies on non-quantitative
       observations to identify when new or modified information is needed on the
       web pages.
   •   When investor questions are received on a topic, even though relevant
       information is available on the Fast Answers web pages. This situation could
       indicate that the online information is not adequate or that an opportunity to
       use online research was missed.
   •   When additional education efforts are appropriate (e.g., a new educational
       brochure).
During the audit, OIEA revised its ACTS+ codes for complaints and inquiries to
make them more specific, useful, and current. As a result, the codes can now be
used to identify opportunities to increase investor use of the Fast Answers web
pages (this issue is discussed below).

       Recommendation C
       OIEA should complete its revisions to the complaint and inquiry codes and
       discuss the codes with the field offices when the revisions are complete.
OIEA did not record most telephone inquiries in ACTS+. However, these inquiries
were reflected in OIEA’s workload data because the ACD system tracks the number
of telephone calls received.

       Recommendation D
       OIEA should consider the costs (e.g., staff resources) and benefits (e.g.,
       improved intelligence) for recording telephone inquiries in ACTS+.
During the audit, OIEA implemented this recommendation.


INCREASING THE USE OF TECHNOLOGY
According to our research, many companies in a variety of industries have used web-
based approaches to achieve a significant reduction in questions submitted to
company representatives. However, the IEAP has not experienced a similar
reduction in the number of inquiries received by the staff after the introduction of
the Fast Answers web pages.




INVESTOR INQUIRIES (AUDIT 373)                                        MA R C H 2 9 , 2 0 0 4
                                                                              Page      7



During fiscal years 2000 to 2003, according to OIEA, the IEAP received
approximately 42,000; 40,000; 49,500; and 47,500 questions respectively. One
reason for the continued large number of inquiries could be the major developments
in the securities markets during this period. These included corporate accounting
frauds, Wall Street investigations, and the general decrease in stock valuations.
Also, OIEA believes that the introduction of the Fast Answers web pages increased
the exposure of the IEAP and generated more inquiries.
We found some instances where inquiries received by the staff apparently could
have been answered using the Fast Answers web pages (e.g., questions involving
bankruptcy).
Investors conducting research using the Fast Answers web pages offers several
advantages over staff answering letters, telephone calls, and e-mails. Information
provided through web pages is generally more cost-effective and timely. Also,
information is more likely to be carefully reviewed and standardized before posting
on-line.
During the audit, we identified some concepts that could reduce the number of
inquiries received by the staff:
   •   Current technology allows investors to research information from a Fast
       Answers equivalent using the telephone (through a voice recognition system).
       Thus, an investor making a telephone call could try to research information
       on Fast Answers before speaking with an Investor Assistance Specialist.
       According to a survey (ProSci Benchmarking Report, 1999, page 26) of 112
       companies in various industries and countries, 75% of the companies using a
       voice recognition system reported a decrease in telephone calls that needed to
       be answered by a person. The decrease generally ranged from 6% to 30%.
   •   When an investor submits an e-mail inquiry, a computer-generated response
       could be immediately sent back to the investor informing him or her of the
       Fast Answers. If the investor had tried (or does not want to try) the Fast
       Answers, he or she would so indicate. The e-mail inquiry would then be sent
       to the staff for a response.
OIEA management believes, based on their experiences with investors and their
understanding of the current state of voice-recognition technology, that these
concepts might not provide an appropriate level of customer service at this time.
OIEA believes that many investors would be frustrated by a delay in speaking with
or e-mailing the staff. Because we have no evidence to either confirm or refute
OIEA’s opinion, we are not making a recommendation regarding these concepts.


TELEPHONE GREETINGS
We found that the telephone greeting for the field offices generally did not mention
that answers to many investor questions could be found on the Commission’s web
site. OIEA’s telephone numbers did mention the Commission’s web site.




INVESTOR INQUIRIES (AUDIT 373)                                      MA R C H 2 9 , 2 0 0 4
                                                                                                   Page   8



          Recommendation E
          The Division of Enforcement5, in consultation with OIEA and the field offices,
          should ensure that the investor telephone greeting in the field offices is
          changed, as discussed above.


QUALITY ASSURANCE REVIEWS
OIEA Branch Chiefs review the Investor Assistance Specialists’ responses to
inquiries received by letter or fax before the responses are sent out. E-mail
responses are prepared by an OIEA attorney and are reviewed by a Branch Chief
after they are sent to investors. In the field offices, the quality assurance review
process varies.
Neither OIEA nor the field offices monitor (i.e., record or listen to) telephone calls
from investors for quality assurance purposes. According to the ProSci survey
mentioned above (on page 18), approximately 70% of the companies surveyed
monitor telephone calls at least once a week, with many monitoring on a daily basis.
According to OIEA, it has considered the appropriate level of quality assurance.
OIEA believes that their current procedures are appropriate, given the costs and
benefits. Therefore, we are not making a recommendation regarding this issue for
OIEA, but we are raising it for Enforcement’s consideration.

          Recommendation F
          The Division of Enforcement, in consultation with OIEA and the field offices,
          should determine the appropriate level of quality assurance reviews
          throughout the field offices for the various ways that investors submit
          inquiries.


SEPARATION OF DUTIES
In OIEA, the Investor Assistance Specialists record in ACTS+ certain information
(e.g., the entity and product involved (if any), an appropriate code(s), status of the
inquiry) for letters, faxes, and telephone calls6. Administrative staff record similar
information for e-mails. According to the Investor Assistance Specialists in the field
offices that we interviewed, they generally record this type of information regardless
of how the inquiry is received.
The risk posed by not separating the responses and record-keeping duties is that an
Investor Assistance Specialist could, for instance, close an inquiry in ACTS+ without
providing the investor with a response. Separation of duties is a standard internal
control procedure in which the responsibility for executing a transaction, recording
the transaction, and maintaining custody of assets resulting from the transaction is
assigned to different individuals.

5   The Division of Enforcement has oversight responsibility for the Commission’s field offices.
6   During the audit, OIEA began recording all telephone calls in ACTS- see Recommendation D.


INVESTOR INQUIRIES (AUDIT 373)                                                        MA R C H 2 9 , 2 0 0 4
                                                                              Page      9



According to OIEA, it has considered the costs and benefits of having someone other
than the Investor Assistance Specialists perform ACTS+ data entry for inquiries
received by letter, fax, or telephone. OIEA believes that the current procedure is
appropriate given the costs and benefits. Therefore, we are not making a
recommendation regarding this issue for OIEA, but we are raising it for
Enforcement’s consideration.

       Recommendation G
       The Division of Enforcement, in consultation with OIEA and the field offices,
       should consider having someone other than the Investor Assistance Specialist
       (e.g., administrative staff) record inquiry information in ACTS+.


APPEARANCE OF A COMMISSION ENDORSEMENT
During the audit, we noticed that the FAQ web page contained the company logo of
the vendor. If investors “clicked on the logo,” they were taken to the vendor’s home
page. This home page included case studies of the vendor’s clients, including the
Commission. In addition, the vendor’s home page included a picture of the
Commission’s seal.
We brought this matter to the attention of OIEA and the Commission’s Ethics
Office. We were concerned with the appearance of the Commission endorsing a
specific company or product.
OIEA and the Ethics Office agreed with our concern and have addressed the issues
(the link to the vendor’s home page and the Commission’s seal were removed). Thus,
we are not making a recommendation regarding this issue.




INVESTOR INQUIRIES (AUDIT 373)                                      MA R C H 2 9 , 2 0 0 4
